       INSPEcrOR GENERAL




                                                                                       IG-BB-024



       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   WASHINGTON, D.C. 20436

 November 9, 2004

 MEMORANDUM

 TO:             Chairman
                 Commissioners
                 Director, Office of Administration
                 Director, Office of External Relations
                 Director, Office of Operations
                 Director, Office of Facilities Management
                 Secretary
                 General Counsel        /             .r:/!./?
 FROM:
                 lnsP"'lorG~~1 Ld~-
 SUBJECT:        Inspector General's Independent Audit Report of the U.S. International Trade
                 Commission's FY 2004 Financial Performance and Statement on the
                 Commission's Management Challenges
                 Audit Report Number: OIG-AR-02-05

I am pleased to provide you with the attached audit report, which presents an unqualified opinion
on the U.S. International Trade Commission's FY 2004 financial statements. We engaged the
independent public accounting finn of O'Connor & Drew, P.C. to perform the audit of
the Commission's financial statements as of the year ended September 30,2004. The
contract required that the audit be done in accordance with U.S. generally'accepted
government auditing standards and OMB Bulletin 01-02, Audit Requirements for Federal
Financial Statements.

Additionally, as reported in our October 2004 Semiannual Report to the Commission and to the
Congress, the Office of Inspector General (OIG) considers the following to be the top
management challenges facing the Commission as identified by the OIG-as well as recent OIG
activities relating to each challenge.

Management Challenge: Competitive Sourcing. The Commission has competitively contracted
for information technology services, preparation of financial statements, human capital planning,
certain editing and publishing services, mailroom and general labor services, cleaning and
building maintenance services, and security services. Private sector contract employees comprise
more than 10 percent of on-site personnel. In addition, other services are acquired on an as-
needed basis, such as virtually all equipment maintenance services, application systems design
and development, and certain audit and financial services.
Management Challenge: Improved Financial Performance. Our July 2003 audit of the
Commission's financial management controls found that the Commission's accounting records
reasonably and fairly represented financial transactions and internal controls were in place. We
found no instances of fraud. However, we made four recommendations to strengthen internal
controls related to property, cash, payroll, and accounts receivable. The Assistant Inspector
General for Audit coordinated with the Director, Office of Administration, and his staff to ensure
that the Commission prepared financial statements in accordance with OMB provisions. The
Commission contracted for assistance in preparing the financial statements in FY 2004.

Management Challenge: Budget and Performance Integration. Since FY 2000, the
Commission has accelerated efforts to link budgeting with strategic planning. Budget formulation
and execution activities have been restructured to permit the allocation of virtually all costs to one
of the five operations set forth in the Strategic Plan. Specifically, because personnel costs are
more than 72 percent of total costs, the Commission uses the labor cost reporting system to
collect work years and cost information and attribute it directly to strategic operations when
feasible. Since FY 2001, the Commission's Budget Justification has presented cost and workload
information in a format that aligns direct and indirect costs with operations in the Strategic Plan.

Management Challenge: Expanded Electronic Government. Agency Inspectors General are to
conduct an annual independent evaluation of agency information security programs and practices.
Accordingly, we conducted comprehensive audits of the Commission's information security
program in FY 2001, FY 2002, and FY 2003. The FY 2003 evaluation completed during the prior
period found that the Commission must take further action in order to achieve consistency with
OMB Circular No. A-130, Appendix III Security ofFederal Automated Information Resources
(February 1996). We identified 7 findings in the areas of management, operational, and technical
controls and made 18 recommendations to improve the Commission's IT security. Although
problems persist, the Commission made sufficient progress in addressing them that they neither in
part nor in sum constitute a material weakness. In addition to information security measures, the
Commission has committed significant resources to electronic government initiatives.

Management Challenge: Strategic Management ofHuman Capital. Human capital is the
Commission's largest resource, with salaries and personnel benefits representing approximately
72 percent of the FY 2004 budget. The Commission maintains an expert staff of professional
international trade and nomenclature analysts, investigators, attorneys, economists, computer
specialists and administrative support personnel. More than one third of the Commission's
workforce is eligible to retire in the next 5 years. The Commission may realign resources as
priorities shift, but the cost of the current staffing level is increasing at a rate faster than
appropriation levels as the number of Civil Service Retirement System employees decreases and
the number of Federal Employees Retirement System employees increases. Thus, the
Commission must streamline human resource processes, review how it utilizes staff, and develop
a better understanding of the relationship between human resources and financial resources to
ensure that the Commission builds, deploys, and sustains a skilled, flexible, high-performing
workforce. In FY 2005, the Commission will focus on: leadership and knowledge management,
workforce planning and deployment, and strategic alignment.
    UNITED STATES
INTERNATIONAL TRADE
     COMMISSION
   FINANCIAL STATEMENTS


       SEPTEMBER 30, 2004
    UNITED STATES
INTERNATIONAL TRADE
     COMMISSION
   FINANCIAL STATEMENTS


       SEPTEMBER 30, 2004
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION

                                   Financial Statements

                                 September, 2004 and 2003


                                         CONTENTS




Independent Accountants' Report                             1-5

Financial Statements:

      Balance Sheets                                        6

       Statements of Net Cost                               7

       Statements of Changes in Net Position                8

       Statements of Budgetary Resources                    9

       Statements of Financing                              10

       Statement of Custodial Activity                      11

      Notes to the Financial Statements                     12 - 21
  O'Connor
 ~Drewp.c
 ~,.
 ...
          .Certified Public Accountants



                                 INDEPENDENT AUDITORS' REPORT


Office of Inspector General, U.S. International Trade Commission


We have audited the accompanying balance sheet of the United States International Trade
Commission (USlTC/Commission) as of September 30,2004, and the related statements ofnet cost,
changes in net position, budgetary resources, financing, and custodial activity (hereinafter referred to
as the financial statements) for the year then ended. The objective of our audit was to express an
opinion on the fair presentation of the financial statements. In connection with our audit, we also
considered the Commission's internal control over financial reporting and tested the Commission's
compliance with certain provisions of applicable laws and regulations that could have a direct and
material effect on its financial statements.

SUMMARY

We found the following:

       •   The financial statements referred to above are fairly presented, in all material
           respects, in conformity with accounting principles generally accepted in the United
           States of America,

       •   The Commission had effective internal control over financial reporting (including
           safeguarding of assets) and compliance with laws and regulations,

       •   The Commission's financial management systems substantially complied with the
           applicable requirements ofthe Federal Financial Management Improvement Act of
           1996(FFMIA),and

       •   No reportable noncompliance with laws and regulations we tested.


The following sections discuss in more detail (1) these conclusions and our conclusions on
Management's Discussion and Analysis and (2) the scope of our audit.
                                 Opinion on Financial Statements

We have audited the accompanying balance sheet ofthe Commission as of September 30,2004 and
the related statements of net cost, changes in net position, financing, budgetary resources,
reconciliation of net costs to budgetary obligations, and custodial activity for the year then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position ofthe USITC as of September 30, 2004, and its net costs, changes in net position,
budgetary resources, reconciliation of net costs to budgetary obligations, and custodial activity for
the year then ended, in conformity with accounting principles generally accepted in the United States
of America.

We have compiled the accompanying balance sheet of the Commission as of September 30, 2003
and the related statements of net cost, changes in net position, financing, budgetary resources,
reconciliation ofnet costs to budgetary obligations, and custodial activity for the year then ended in
accordance with Statements on Standards for Accounting and Review Services issued by the
American Institute of Certified Public Accountants. A compilation is limited to presenting in the
form of financial statement information that is the representation of management. We have not
audited or reviewed the 2003 statements and, accordingly, do not express an opinion or any other
assurance on them.

The information in the Management Discussion and Analysis section is not a required part of the
financial statements, but is supplementary information required by accounting principles generally
accepted in the United States of America or OMB Bulletin No. 01-09, Form and Content ofAgency
Financial Statements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on
it.

Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The Management Challenges identified by the Inspector General is presented for purposes of
additional analysis and is not a required part of the financial statements. This information has not
been subjected to the auditing procedures applied in the audit of the basic financial statements and,
accordingly, we express no opinion on it.


                            Internal Control Over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be material weaknesses under
standards issued by the American Institute of Certified Public Accountants. Material weaknesses are
conditions in which the design or operation of one or more ofthe internal control components does
                                                  -2-
not reduce to a relatively low level the risk that misstatements caused by error or fraud, in amounts
that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. We noted no matters involving the internal control and its operation that we considered to
be material weaknesses as defined above.

However, we noted other matters involving internal control fmancial reporting and its operation that
we have reported to the management ofUSITC in a separate restricted use report.


                             Compliance with Laws and Regulations

The results of our tests of compliance with other laws and regulations, exclusive of the Federal
Financial Management Improvement Act (FFMIA), disclosed no instances ofnoncompliance that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements. However, the objective of our audit was not to
provide an opinion on overall compliance with laws and regulations. Accordingly, we do not express
such an opinion.

                                 Opinion on FFMIA Compliance

In our opinion, the Commission's financial management systems substantially complied with the
three FFMIA requirements: (1) Federal financial management system requirements, (2) Federal
accounting standards, and (3) the U.S. Government Standard General Ledger (SGL) at the
transaction level, as of September 30, 2004.

                                  Management's Responsibility

The Accountability of Tax Dollars Act of2002 requires each federal agency to report annually to
Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To meet the reporting requirements, the USITC prepares annual
financial statements.

Management is responsible for the financial statements, including:

    •   Preparing the financial statements in conformity with accounting principles
        generally accepted in the United States of America,

    •   Establishing and maintaining internal controls over financial reporting, and
        preparing the Management Discussion and Analysis (including performance
        measures), and

    •   Implementing, maintaining, and assessing financial management systems to
        provide reasonable assurance of substantial compliance with the requirements of
        FFMIA, and

    •   Complying with applicable laws and regulations.
                                                -3-
In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies. Because of inherent limitations in
internal control, misstatements, due to error or fraud may nevertheless occur and not be detected.

                           Auditors' Responsibility and Methodology

Our responsibility is to express an opinion on the fiscal year 2004 financial statements ofUSITC
based on our audit. We conducted our audit in accordance with auditing standards generally accepted
in the United States ofAmerica; the standards applicable to financial audits contained in Government
Auditing Standards, and OMB Bulletin No. 01-02. Those standards and OMB Bulletin No. 01-02
require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free from material misstatement.

An audit includes:

        -Examining, on a test basis, evidence supporting the amounts and disclosures in the
        financial statements;

        -Assessing the accounting principles used and significant estimates made by
        management, and

        -Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2004 audit, we considered the USITC's internal control
over financial reporting by obtaining an understanding of the Commission's internal control,
determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to those
controls necessary to achieve the objectives described in OMB Bulletin No. 01-02 and Government
Auditing Standards. We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers' Financial Integrity Act of1982. The objective ofour audit was not
to provide assurance on internal control over financial reporting. Consequently, we do not provide
an opinion thereon.

As required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertion. Our procedures were not designed to provide assurance on
internal control over performance measures and, accordingly, we do not provide an opinion thereon.

As part ofobtaining reasonable assurance about whether the Commission's fiscal year 2004 financial
statements are free of material misstatement, we preformed tests of the Commission's compliance
with certain provisions oflaws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts, and certain provisions of other
                                                -4-
laws and regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to in
FFMIA. We limited our tests of compliance to the provisions described in the preceding sentence,
and we did not test compliance with all laws and regulations applicable to the Commission.
Providing an opinion on compliance with laws and regulations was not an obj ective of our audit,
and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the Commission's
financial management systems substantially comply with (1) federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government
Standard General Ledger at the transaction level. To meet this requirement, we preformed tests of
compliance with FFMIA Section 803(a) requirements.

                                      Distribution

This report is intended solely for the information and use ofUSITC's management, the USITC's
Office ofthe Inspector General, OMB, and the U.S. Congress, and is not intended to be and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




O'Connor & Drew, P.C.

October 29,2004




                                                - 5-
         UNITED STATES
INTERNATIONAL TRADE COMMISSION

             Balance Sheets


       September 30, 2004 and 2003
                      UNITED STATES
             INTERNATIONAL TRADE COMMISSION

                                       Balance Sheets

                                       September 30,
                                         (in dollars)

                                                                     2004            2003
                                                                                  (Compiled)
Assets:
   Intragovernmental
       Fund Balance with Treasury (Note 3)                        $ 11,249,689    $ 7,422,472
  Total Intragovernmental                                          11,249,689         7,422,472
   Accounts Receivable, Net (Note 4)                                  756,981
   Advances to Others                                                                   1,826
   Equipment (Note 5)                                                2,493,449        190,368
Total Assets                                                      $ 14.500,119    $ 7,614,666

Liabilities:
   Intragovernmental
      Accounts Payable                                          $                 $      18,242
      Employer Contributions and Payroll Taxes Payable (Note 6)      91,478              72,140
      Other (Note 6)                                              1,003,036               1,347
   Total Intragovernmental                                        1,094,514              91,729
   Accounts Payable (Note 6)                                        763,165             603,153
   Accrued Funded Payroll (Note 6)                                  941,067             738,395
   Withholdings Payable (Note 6)                                    538,059             391,773
   Unfunded Leave (Note 6)                                        2,960,006           2,919,082
   Total Liabilities                                              6,296,811           4,744,132

Net Position:
  Unexpended Appropriations (Note 3)                                 8,669,865      5,599,248
  Cumulative Results of Operations                                    (466,557)    (2,728,714)
  Total Net Position                                              $ 8,203,308     $ 2,870,534
Total Liabilities and Net Position                                $ 14,500,119    $ 7,614,666




The accompanying notes are an integral part ofthese statements.
                                              - 6-
                  UNITED STATES
         INTERNATIONAL TRADE COMMISSION

                              Statements of Net Cost

                        For the Years Ended September 30,
                                    (in dollars)

                                                                             2003
                                                                          (Compiled)

Intragovernmental Costs                              $    6,680,990   $      6,901,058

Costs with the Public                                    48,034,896        45,069,062

Cost Not Assigned to Programs (Note 8)                      40,925            113,856

Total Net Cost                                       $ 54,756,811     $     52.083.976




The accompanying notes are an integral part ofthese statements.

                                            -7-
                                              UNITED STATES
                                     INTERNATIONAL TRADE COMMISSION

                                                 Statements of Changes in Net Position

                                                  For the Years Ended September 30,
                                                              (in dollars)

                                                              2004                    2004                2003                2003

                                                       Cumulative Results        Unexpended        Cumulative Results    Unexpended
                                                         of Operations          Appropriations       of Operations      Appropriations
                                                                                                      (Compiled)         (Compiled)

Balances, Beginning of Fiscal Year                     $          (2,728,714)   $     5,599,248    $      (2,338,053)   $     3,878,338
Prior Period Adjustment (Note 9)                                   2.407.925                                (234.775)
Beginning of Fiscal Year, Restated                                  (320,789)         5,599,248           (2,572,828)        3,878,338

Budgetary Financing Sources:
   Appropriations Received                                                           58,295,000                              54,000,000
   Appropriations-Used                                            54,611,043        (54,611,043)          51,928,090        (51,928,090)
   Other Adjustments                                                                   (613,340)                               (351,000)
Total Financing Sources                                           54,611,043          3,070,617           51,928,090          1,720,910

Net Cost of Operations                                            54.756.811                              52.083.976

Balances, End of Fiscal Year                          $             (466,557)   $    8,669,865     $      (2,728,714)   $    5,599.248




The accompanying notes are an integral part ofthese statements.
                                                                          -8-
                       UNITED STATES
              INTERNATIONAL TRADE COMMISSION
                           Statements of Budgetary Resources

                           For the Years Ended September 30,
                                       (in dollars)


                                                                       2004                2003
                                                                                        (Compiled)
Budgetary Resources:
  Budget Authority:
     Appropriations Received (Note 1)                             $   58,295,000    $    54,000,000

 Unobligated Balance:
     Beginning of Fiscal Year                                           375,256             477,304
 Spending Authority From Offsetting Collections Earned:
          Collected (Note 10)                                             14,536             12,414
 Recoveries of Prior Year Obligations (Note 10)                          685,329            415,884
  Permanently Not Available (Note 1)                                    (613,341)          051,000)
 Total Budgetary Resources                                        $   58,756,780    $    54,554,602

Status of Budgetary Resources:
  Obligations Incurred - Direct                                       57,979,072          54,179,346
  Unobligated Balance - Available                                        777,300             375,256
  Unobligated Balance - Not Available                                        408
  Total Status of Budgetary Resources                             $   58,756,780    $     54,554.602

Relationship of Obligations to Outlays:
  Obligated Balance, Net, Beginning of Fiscal Year                $    7,045,868    $      5,382,522
  Obligated Balance, Net, End of Fiscal Year:
      Undelivered Orders                                               7,892,157           5,223,993
      Accounts Payable                                                 2,326,788           1,821,876
Total Net Obligated Balance, End of Fiscal Year                   $   10,218,945    $      7,045,868

  Outlays:
      Disbursements                                                   54,120,666          52,100,116
      Collections                                                        (14,536)            (12,414)
   Net Outlays                                                    $   54,106,130    $     52,087,702




The accompanying notes are an integral part ofthese statements.

                                                -9-
                                                  UNITED STATES
                                         INTERNATIONAL TRADE COMMISSION
                                                             Statements of Financing

                                                      For the Years Ended September 30,
                                                                  (in dollars)
                                                                                              2004           2003
                                                                                                          (Compiled)
Resources Used to Finance Activities:

   Budgetary Resources Obligated:
      Obligations Incurred                                                                $ 57,979,072   $ 54,179,346
     Less: Spending Authority From Offsetting Collections/Adjustments (Note 10)                699,865        428,298
       Total Resources Used to Finance Activities                                           57,279,207     53,751,048

Resources Used to Finance Items Not Part of the Net Cost of Operations:

     Change in Budgetary Resources Obligated for Goods, Services, and Benefits
      Ordered but Not Yet Provided                                                           2,668,165      1,822,958
     Resources That Finance the Acquisition of Assets                                          348,094
      Total Resources Used to Finance Items Not Part of the Net Cost of Operations           3,016,259      1,822,958

       Total Resources Used to Finance the Net Cost of Operations                           54,262,948     51,928,090

Components of Net Cost of Operations That Will Not Require or
 Generate Resources in the Current Period:

 Components Requiring or Generating Resources in Future Periods:
   Increase in Annual Leave Liability (Note 11)                                                 40,925        113,856

 Components Not Requiring or Generating Resources:
   Depreciation and Amortization                                                              452,938         42,030

      Total Components of Net Cost of Operations That Will Not Require or
      Generate Resources in the Current Period                                                493,863        155,886

      Net Cost of Operations                                                              $ 54,756,811   $ 52,083,976
The accompanying notes are an integral part ofthese statements.      - 10 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION

                           Statement of Custodial Activity

                         For the Year Ended September 30,
                                    (in dollars)



Revenue Activity:
Cash Collections - Penalties                                      $     250,000
 Accrual Adjustments                                                    750,000
Total Custodial Revenue (Note 12)                                     1,000,000

Disposition of Collections:
Transferred to Treasury                                               (250,000)
 Increase in Amounts Yet to be Transferred                            (750,000)
Net Custodial Activity                                            $




The accompanying notes are an integral part ofthese statements.
                                             - 11 -
                     UNITED STATES
            INTERNATIONAL TRADE COMMISSION
                            Notes to the Financial Statements

                               September 30, 2004 and 2003


Note 1. Significant Accounting Policies

   A. Reporting Entity - The United States International Trade Commission (USITC) is an
      independent agency of the U.S. Government created by an act of Congress and is headed by
      six commissioners, appointed by the President and confirmed by the U.S. Senate for nine-
      year terms. The President designates the chairman and vice chairman, each of whom serve
      two-year terms.

       The USITC conducts investigations and reports findings relating to imports and the effect of
       imports on industry, and unfair import practices. The USITC advises the President on the
       probable economic effect ofproposed trade agreements with foreign countries. The USITC
       also conducts analytical studies and provides reports on issues relating to international trade
       and economic policy on behalf of both the Congress and President.

   B. Basis of Accounting and Presentation - USITC's financial statements conform to U.S.
      Generally Accepted Accounting Principles (GAAP) as promulgated by the Federal
      Accounting Standards Advisory Board (FASAB). The American Institute ofCertified Public
      Accountants (AICP A) recognizes FASAB Standards as GAAP for federal reporting entities.
      These principles differ from budgetary reporting principles. The differences relate primarily
      to the capitalization and depreciation of property and equipment, as well as, the recognition
      of other long-term assets and liabilities. The statements were prepared in conformity with
      OMB Bulletin 01-09, Form and Content ofAgency Financial Statements.

       The financials have been prepared from the books and records ofthe USITC and include all
       accounts of all funds under the control of the USITC. Accounting principles generally
       accepted in the United States ofAmerica encompass both accrual and budgetary transactions.
        Under the accrual method, revenues are recognized when earned and expenses are
       recognized when a liability is incurred, without regard to receipt or payment of cash.
       Budgetary accounting facilitates compliance with legal constraints and controls over the use
       offederal funds. The accompanying financial statements are prepared on the accrual basis of
       accounting. The USITC's fiscal year is October 1 to September 30. Fiscal year 2004
       financials are audited, and 2003 financials are compiled, to allow comparison.




                                               - 12 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                            Notes to the Financial Statements

                               September 30, 2004 and 2003


Note 1. Significant Accounting Policies - Continued

      Assets - Intragovernmental assets are those assets that arise from transactions with other
      federal entities. Funds with the U.S. Treasury composed the majority of intragovernmental
      assets on USITC's balance sheet.

      Financing Sources - The USITC has received a no-year appropriation for operations since
      fiscal year 1993. Appropriations are recognized as revenue and expensed when related
      operating expenses are incurred. Differences between appropriations received and expensed
      are included as unexpended appropriations. Congress appropriated to the USITC
      $58,295,000 and $54,000,000 for salaries and expenses in fiscal years 2004 and 2003,
      respectively. Congress also rescinded funds in the amount of$613,341 and $351,000 for
      fiscal years 2004 and 2003, respectively.

   C. Fund Balances with the     u.s.
                                   Treasury - Cash receipts and disbursements are processed by
      the Treasury. Fund balance with the Treasury represents appropriated entity funds in the
      custody ofthe U.S. Treasury and is available to pay current liabilities and finance authorized
      purchase commitments. The USITC's obligated and unobligated fund balances are carried
      forward until goods or services are received and payments are made, or until such time as
      funds are deobligated.

   D. General Property, Plant, and Equipment - USITC capitalizes acquisitions with costs
      exceeding $50,000 and useful lives oftwo or more years. Property and equipment consist of
      equipment and software. Depreciation expense is calculated using the straight-line method
      over its estimated economic useful life as follows: software, 7 years; and equipment ranges
      from 5 to 7 years.

       Internal use software development and acquisition costs of $100,000 or more are capitalized
       as software development in progress until the development stage has been completed and the
       software successfully tested. Upon completion and testing, software development-in-
       progress costs are reclassified as internal use software costs and amortized using the straight-
       line method over the estimated useful life. Purchased commercial software which does not
       meet the capitalization criteria is expensed.




                                                - 13 -
                      UNITED STATES
             INTERNATIONAL TRADE COMMISSION
                             Notes to the Financial Statements

                                September 30, 2004 and 2003


Note 1. Significant Accounting Policies - Continued

   E. Accrued Annual Leave - Annual leave is accrued quarterly, although it is not funded until it
      is used by employees. To the extent current and prior-year appropriations are not available to
      fund annual leave earned but not taken; funding will be obtained from future salaries and
      expenses appropriations. Sick, compensatory, and certain other types of leave are not
      accrued and are expensed when used by the employee.

   F. Net Position - Net position is the residual difference between assets and liabilities and is
      composed of unexpended appropriations and cumulative results operations. Unexpended
      appropriations represent the amount of unobligated and unexpended budget authority.
      Unobligated balances are the amount of appropriations or other authority remaining after
      deducting the cumulative obligations from the amount
      available for obligation. Cumulative results of operations are the net result of USITC's
      operations since inception.

   G. Intergovernmental Activities - The USITC records and reports only those Government-wide
      financial matters for which it is responsible and identifies only those financial matters that
      the USITC has been granted budget authority and resources to manage.

   H. Use of Estimates - The preparation of the accompanying financial statements requires
      management to make estimates and assumptions about certain estimates included in the
      financial statements. Actual results will invariably differ from those estimates.

   I.   Tax Status - USITC, as a federal agency, is not subject to federal, state, or local income taxes
        and accordingly, no provision for income taxes is recorded.




                                                 - 14 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                            Notes to the Financial Statements

                              September 30, 2004 and 2003


Note 2. Non-Entity Assets

                                                              2004

                                              Entity     Non-Entity           Total

      Intragovemmental:
              Fund balance with Treasury $ 10,996,653 $       253,036
      Total intragovernmental            $ 10,996,653 $       253,036     $   11,249,689

      Accounts receivable                $         6,981 $    750,000           756,981
      Advances to others
      Plant, property, and equipment         2,493,449                         2,493,449
      Total assets                           2,500,430        750,000          3,250,430

             Total assets                $ 13,497,083    $ 1,003.036 $        14,500,119


                                                               2003
                                                             (Compiled)

                                              Entity     Non-Entity           Total

      Intragovernmental:
              Fund balance with Treasury $ 7,421,125 $          1,347
      Total intragovernmental            $ 7,421,125 $          1.347     $   7,422,472

      Accounts receivable                $               $
      Advances to others                        1,826                              1,826
      Plant, property, and equipment          190,368                            190,368
      Total assets                            192,194                            192,194

             Total assets                $ 7,613,319     $       1,347    s    7,614,666




                                          - 15 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                          Notes to the Financial Statements

                             September 30, 2004 and 2003


Note 2. Non-Entity Assets - Continued

      Non-Entity funds include copier fees collected from the public for Freedom of Information
      Act (FOIA), civil penalty fees, and other collections which will be turned over to the U.S.
      Treasury and are not available for use by the USITC. Non-entity assets are assets that the
      USITC holds, but does not have authority to use. A part ofthe fund balance with Treasury is
      non-entity and the remaining is entity. Entity assets are those assets which the reporting
      entity holds and has the authority to use in its operations.


Note 3. Fund Balances with Treasury

                                                               2004              2003
                                                                               (Compiled)
      A. Fund Balances:
            Appropriated Funds                             $ 10,996,653    $    7,421,125
            Other Fund Types                                    253,036             1,347
               Total                                       $ 11,249,689    $    7.422.472

      B. Status of Fund Balance with Treasury
             Unobligated Balance
                Available                                        777,300          375,256
                Unavailable                                          408
             Obligated Balance not yet Disbursed               7,892,157        5,223,992
                    Total                                  $   8,669,865   $    5.599.248


      Fund Balances with Treasury is the sole intragovernmental asset. The entity fund balance
      represents funds appropriated by Congress for use by the USITC. No entity funds are
      restricted; however, in accordance with Section 605 of Title 5 of Public Law 105-277,
      Congressional approval is required under certain reprogramming or transfer actions.




                                             - 16 -
                     UNITED STATES
            INTERNATIONAL TRADE COMMISSION
                            Notes to the Financial Statements

                               September 30, 2004 and 2003


Note 4. Accounts Receivable, Net
       The balance of funds receivable from USITC employees for the parking program is $ 6,981
       and $ 0 on September 30, 2004, and September 30, 2003, respectively.

       A civil penalty was imposed by the USITC in the amount of$ 1,000,000 in fiscal year 2003.
       A receivable was set up in fiscal year 2004, and $ 250,000 was collected. As a result, there
       were balances of$ 750,000 and $0 at September 30,2004 and 2003, respectively.

Note 5. General Property, Plant, and Equipment, Net

       Major classes of general property, plant, and equipment include: 1) office furniture, fixtures,
       and equipment, and 2) information systems and data handling equipment. Depreciation is
       recorded annually, at the end ofthe fiscal year using straight-line method, based on estimated
       useful lives of seven years and five years, respectively, with a ten percent residual value.

                                    Acquisition             Accumulated       Net Book
       Fiscal Year 2004               Value                 Depreciation        Value

       Office Furniture, Fixtures,
       and Equipment            $      1,223,453            $    796,452      $      427,001

       Software                        2,650,499                 584,051           2,066,448

                                $      3,873,952            $   1.380,503     $    2,493,449


       Fiscal Year 2003             Acquisition             Accumulated       Net Book
         (Compiled)                   Value                 Depreciation        Value

       Office Furniture, Fixtures,
       and Equipment            $       617,845             $    427,477      $       190,368

       Software

                                $       617,845             $   427,477       $       190,368




                                                   - 17 -
                     UNITED STATES
            INTERNATIONAL TRADE COMMISSION
                           Notes to the Financial Statements

                             September 30, 2004 and 2003


Note 6. Liabilities Not Covered by Budgetary Resources

                                                                        2004

                                                   Entity         Non-Entity          Total

       Intragovernmental
               Other                        $                $ 1,003,036
       Total intragovernmental              $                $ 1,003,036

      Unfunded Leave                        $    2,960,006   ",,--$         _

      Totalliab. not covered by budgetary        2,960,006            1,003,036    $ 3,963,042
      Totalliab. covered by budgetary            2,333,769                           2,333,769

       Total liabilities                    $ 5293,775       $ 1,003,036           $ 6.296,811


                                                                        2003
                                                                      (Compiled)

                                                   Entity         Non-Entity          Total

       Intragovernmental
               Other                        $                $            1,347
       Total intragovernmental              $                $            1,347

      Unfunded Leave                      $ 2,919,082         $
      Totalliab. not covered by budgetary   2,919,082                     1,347    $ 2,920,429
      Totalliab. covered by budgetary       1,823,703                                1,823,703

       Total liabilities                    $ 4,742.785       $           1,347    $ 4,744,132




                                                - 18 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                           Notes to the Financial Statements

                              September 30, 2004 and 2003


Note 6. Liabilities Not Covered by Budgetary Resources - Continued

      Intragovernmental: Other liabilities consist of a civil penalty imposed by the USITC which,
      upon collection, are held in trust for the U.S. Treasury. Other liabilities also include copier
      fees collected from the public for FOIA and other collections.

      Unfunded Leave: Accrued Annual Leave is the value of leave accumulated by USITC
      employees which is funded when used. The current portion is dependent upon such use and
      is, therefore, not accurately determinable.

      Liabilities Covered by Budgetary Resources: These current liabilities are accounts payable,
      employer contributions, payroll taxes, accrued funded payroll, withholdings payable, and
      liabilities payable to the public.


Note 7. Contingencies

      USITC has certain claims and lawsuits pending against it. Provision has been made in
      USITC's financial statements for losses considered probable and estimable. These amounts
      are considered by management to be immaterial.
      Management believes that losses, if any, from other claims and lawsuits would not be
      material to the fair presentation ofUSITC's financial statements.


Note 8. Gross Cost by Budget Functional Classification

      The Statement ofNet Cost for USITC uses a Budget Functional Classification (BFC) code.
      BFC codes are used to classify budget resources presented in the Budget ofthe United States
      Government per OMB. The Statement of Net Cost for financial purposes is designed to
      summarize Intragovernmental Costs, Costs with the Public, and Costs Not Assigned to
      Programs. The only cost that is included under the section "Costs Not Assigned to
      Programs" is the increase in Annual Leave Liability in the amount of $40,925 and $113,856
      in fiscal years 2004 and 2003, respectively (see note 11). The total Net Cost was
      $54,756,811 and $52,083,976 at September 30, 2004, and September 30,2003, respectively.




                                              - 19 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                           Notes to the Financial Statements

                              September 30, 2004 and 2003


Note 9. Prior Period Adjustment

      Prior to fiscal year 2003, many of the EDIS IT costs were expensed. All costs were
      recognized as assets and adjusted accordingly in the software account as a prior period
      adjustment in 2004. Accumulated depreciation was calculated for all the costs from January
      1, 2003 through September 30, 2003. It was recorded as a prior period adjustment included
      in Cumulative Results of Operations.

      In addition, there was an acquisition of equipment which was to be recorded as a capital lease
      since fiscal year 2000, but the payments were expensed. In the fiscal year 2003, the
      equipment was bought out by USITC. Prior years were adjusted to book the equipment in
      the asset account and the necessary adjusting entries were made and accumulated
      depreciation was calculated. A prior period adjustment for fiscal year 2003 was made for the
      net addition.

      Prior year fixed asset additions                                      $       2,908,014

      Accumulated depreciation                                                      (500,089)

                                                                            $       2.407,925

Note 10. Spending Authority from Offsetting Collections/Adjustments

      Spending authority from offsetting collections consists of refunds of prior year
      expenditures reported to U.S. Treasury as collections. Adjustments include deobligation
      of prior year funds.
                                                               2004               2003
                                                                               (Compiled)

      Spending authority from offsetting collections         $     14,536       $      12,414

      Recovery of prior year obligations                          685,329             415,884

                                                             $    699,865       $     428,298




                                              - 20-
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                           Notes to the Financial Statements

                              September 30, 2004 and 2003


Note 11. Explanation of Differences Between Liabilities Not Covered by Budgetary
 Resources and Components Requiring or Generating Resources in Future Periods

      This represents the net increase in accrued annual leave reflected on the balance sheet as a
      liability not covered by budgetary resources. Costs of this nature are incurred in this
      reporting period and are a component ofnet cost of operations. Other liabilities not covered
      by budgetary resources are not a part ofnet cost of operations or obligations incurred and are
      not reflected on the Statement of Financing.


Note 12. Non-Exchange Revenue - Custodial Activities

      In fiscal year 2004, the USITC functions in a custodial capacity with respect to revenue
      transferred or transferable to recipient government entities or the public. These amounts are
      not reported as revenue to the USITC.

      The USITC collects a civil penalty for the United States pursuant to 19 U.S.c. §1337(£)(2) in
      connection with violations of cease and desist orders. A person who violates a cease and
      desist order can be assessed a civil penalty of up to $100,000 for each day on which a
      violation occurs or up to twice the domestic value ofthe goods imported or sold in violation
      of the order. Payments are made to USITC and held temporarily by USITC in a custodial
      capacity until remitted to the U.S. Department of the Treasury.

      A civil penalty was imposed by the USITC for $ 1,000,000 in fiscal year 2003. A receivable
      was set up in fiscal year 2004, and USITC collected $ 250,000 that was remitted to Treasury.
      As of September 30, 2004, USITC has a long-term receivable of $ 750,000.




                                              - 21 -
